OIG Investigative Reports Press Release Sacramento CA., 12/03/2013 - Tracy Woman Sentenced to over 4 Years in Prison for Student Loan Fraud Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of CALIFORNIA
NEWS
United States Attorney Benjamin B. Wagner
Eastern District of California
Tracy Woman Sentenced to over 4 Years in Prison for Student Loan Fraud Scheme
FOR IMMEDIATE RELEASE
Tuesday, December 3, 2013
www.justice.gov/usao/cae/
usacae.edcapress@usdoj.gov
Docket #: 2:12-cr-316 LKK
SACRAMENTO, Calif. — Janeigh Mendoza, 32, of Tracy, was sentenced today by United States District Judge Lawrence K. Karlton to four years and three months in prison for conspiracy to commit student loan fraud and aggravated identity theft, United States Attorney Benjamin B. Wagner announced. Mendoza was also ordered to pay $154,596 in restitution.
According to court documents, Mendoza was part of a conspiracy to commit student loan fraud by recruiting straw students to sign up for college classes for the purpose of receiving financial aid funds. Mendoza completed the necessary paperwork and online forms necessary to obtain funds for individuals who never intended to attend classes. While some of the individuals Mendoza recruited agreed to have their identities used to commit fraud, other individuals had their personal information used to commit aid without their consent. One individual used by Mendoza had been diagnosed with moderate mental retardation and was residing in an assisted living facility with paid caretakers when she was signed up for college without her knowledge. Mendoza received the student aid funds of that individual on her debit card. Additionally, the personal financial information of that individual was found at Mendoza's address in Tracy during the execution of a federal search warrant.
"Preserving federal student assistance funds for deserving students is critical," U.S. Attorney Wagner said. "Today's sentence sends the message that fraud against student assistance programs will not be tolerated."
"Federal student aid exists so that individuals can pursue and make their dream of a higher education a reality. As the law enforcement arm of the U.S. Department of Education, ensuring that those who steal student aid or game the system for their own selfish purposes are stopped and held accountable for their criminal actions is a big part of our mission," said Natalie Forbort, Special Agent in Charge of the U.S. Department of Education Office of Inspector General's Western Regional Office. "That's why I'm proud of the work of OIG special agents and our law enforcement colleagues for holding Ms. Mendoza accountable for her criminal actions."
Six defendants including Mendoza have pleaded guilty in this case. Jaymar Brown, 34, of Stockton, is scheduled to be sentenced on December 10, 2013. Michelle Wright, 32, of Stockton, is scheduled to be sentenced on February 4, 2014. Brandy Miner, 37, of Stockton, was sentenced to probation. Kenneth Wright, 35, and Jennifer Brown, 55, of Stockton, were sentenced to time-served.
This case is the product of an investigation by the United States Department of Education, Office of Inspector General. Assistant United States Attorney Jared C. Dolan is prosecuting the case.
####
Top
Printable view
Last Modified: 12/05/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov